                       Errors in Failure to Pay Penalty
                          Amounts Occur When the
                       Penalty Is Computed Manually

                                 September 2004

                       Reference Number: 2004-30-184




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                September 27, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                       Gordon C. Milbourn III
                                  Acting Deputy Inspector General for Audit

      SUBJECT:                    Final Audit Report – Errors in Failure to Pay Penalty Amounts
                                  Occur When the Penalty Is Computed Manually
                                  (Audit # 200430007)


      This report presents the results of our review of manually computed Failure to Pay
      (FTP) penalty amounts. The overall objective of this review was to determine whether
      Internal Revenue Service (IRS) employees manually computed the FTP penalty
      correctly, and manual computations were limited to only those situations where IRS
      computers could not make the computation. This review was conducted because of the
      large number of taxpayer accounts affected, the complexity of the manual FTP penalty
      computation, and prior IRS error rates for manually calculated interest amounts.
      Normally, IRS computer programs automatically calculate the amount of the FTP
      penalty. However, there are situations where penalties are prohibited or limited to
      specific periods and must be computed manually by IRS employees. We identified
      approximately 164,000 manual computations of the FTP penalty during Calendar
      Years 2001 through 2002. The penalties are computed manually because the
      calculations contain variables that are not programmed into IRS computers. In these
      situations, an IRS employee enters a code into the computer to “restrict” the computer
      from calculating the penalty. Manually performing these complex penalty calculations
      significantly increases the potential for errors and is very resource intensive. A prior
      Treasury Inspector General for Tax Administration report1 discussed significant IRS
      errors in manual calculations of interest on restricted accounts.



      1
       The Internal Revenue Service Has Made Some Progress, but Significant Improvements Are Still Needed to Reduce
      Errors in Manual Interest Calculations (Reference Number 2002-30-042, dated December 2001).
                                                             2


In summary, IRS is miscalculating restricted FTP penalty amounts and unnecessarily
restricting certain accounts. In a sample of 50 taxpayer accounts that were restricted
and had manually calculated FTP penalties, 24 percent contained errors in the penalty
calculation, were unnecessarily restricted, or both.
In our opinion, several factors contributed to the penalty calculation errors, including the
complexity of the calculations and the limited amount of time IRS employees perform
such calculations relative to their other work. Most of the accounts restricted in error
were Substitute for Return (SFR)2 accounts. It appears tax examiners are not familiar
with the changes that simplified the FTP penalty computation for SFR accounts that
allows the computer to perform the computation.
We recommended the Director, Office of Penalties and Interest, consider including the
manual computation of the FTP penalty as part of the responsibilities of a centralized
group the IRS is forming to quality review restricted interest. If not included, the Director
should provide training to IRS employees to ensure the FTP penalty, when manually
computed, is accurately calculated. The Director should perform an independent review
of SFR accounts to determine if a high percentage of these accounts continue to be
unnecessarily restricted and, if so, ensure training is provided that emphasizes the
appropriate circumstances for restricting these types of accounts.
Management’s Response: IRS management agreed with our recommendations. They
stated that a key aspect of having the centralized group handle quality review of the
manually computed FTP penalties will be their ability to link this work with the other
work performed by the group. Therefore, the Director, Payment Compliance, Small
Business/Self-Employed Division, will study whether the manual computation of the FTP
penalty could be linked with the centralized group once it becomes functional. In the
meantime, efforts will be made to ensure all affected employees receive the necessary
training and timely receive the related material for updates and reviews. In addition, the
Office of Penalties and Interest will conduct a review of SFR accounts to determine the
source of any unnecessary restrictions and, if necessary, will advise the affected
employees accordingly. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.




2
    A tax return prepared by the IRS showing the tax due for an individual taxpayer who fails to file a return.
                               Errors in Failure to Pay Penalty Amounts
                             Occur When the Penalty Is Computed Manually




                                               Table of Contents


Background ............................................................................................... Page 1
Taxpayer Accounts With Manually Calculated Failure to
Pay Penalties Were Restricted in Error or Calculated Incorrectly ............. Page 2
         Recommendations 1 and 2: ...........................................................Page 5

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 7
Appendix II – Major Contributors to This Report ....................................... Page 9
Appendix III – Report Distribution List ...................................................... Page 10
Appendix IV – Management’s Response to the Draft Report .................... Page 11
               Errors in Failure to Pay Penalty Amounts
             Occur When the Penalty Is Computed Manually

                         The Internal Revenue Service (IRS) imposes penalties on
Background
                         taxpayers to encourage voluntary compliance with tax laws.
                         Voluntary compliance consists of preparing an accurate
                         return, timely filing that return, and timely paying any taxes
                         due.
                         A Failure to Pay (FTP) penalty is imposed when (1) any tax
                         due on an original return is not paid by the due date of the
                         return, or (2) the taxpayer is assessed additional tax that was
                         not shown on the original return and does not pay the
                         subsequent assessment within 21 days. The penalty is not
                         imposed if the taxpayer shows the failure to pay was due to
                         reasonable cause and not due to willful neglect.
                         Generally, the FTP penalty is calculated at 0.5 percent of the
                         unpaid tax for each month the tax remains due, until a
                         maximum penalty of 25 percent of the tax due is reached.
                         There are circumstances when the FTP penalty rate changes.
                         Taxpayers who timely file their returns and enter into
                         installment agreements have the FTP penalty rate reduced
                         from 0.5 percent to 0.25 percent. On the other hand, the rate
                         increases from 0.5 percent to 1 percent when a notice of
                         intent to levy or notice and demand for immediate payment
                         is issued.
                         Normally, IRS computer programs automatically calculate
                         the amount of the penalty. However, there are situations
                         where penalties are prohibited or limited to specific periods
                         and must be computed manually by IRS employees. They
                         are computed manually because the calculation contains
                         variables that are not programmed into IRS computers. In
                         these situations, an IRS employee enters a code into the
                         computer to “restrict” the computer from calculating the
                         penalty.
                         A prior Treasury Inspector General for Tax Administration
                         (TIGTA) report1 discussed significant IRS errors in manual
                         interest calculations on restricted accounts. The IRS agreed
                         to take corrective actions to improve that process. During
                         this current audit, we reviewed the manual calculations of

                         1
                          The Internal Revenue Service Has Made Some Progress, but
                         Significant Improvements Are Still Needed to Reduce Errors in
                         Manual Interest Calculations (Reference Number 2002-30-042, dated
                         December 2001).
                                                                                     Page 1
                          Errors in Failure to Pay Penalty Amounts
                        Occur When the Penalty Is Computed Manually

                                    the FTP penalty on restricted accounts and determined if
                                    they were computed accurately and only restricted when
                                    necessary.
                                    This review was performed during the period January
                                    through June 2004 through analysis and review of tax return
                                    information obtained from the IRS’ Business Master File2
                                    and Individual Master File.3 The audit was conducted in
                                    accordance with Government Auditing Standards. Detailed
                                    information on our audit objective, scope, and methodology
                                    is presented in Appendix I. Major contributors to the report
                                    are listed in Appendix II.

Taxpayer Accounts With              Using a computer program, we identified approximately
Manually Calculated Failure to      164,000 taxpayer accounts that became restricted in
Pay Penalties Were Restricted in    Calendar Years 2001 through 2002 and had manually
Error or Calculated Incorrectly     calculated FTP penalties.4 In a random sample5 of 50 of
                                    these accounts, we found 12 (24 percent) contained errors in
                                    the penalty calculation, were unnecessarily restricted, or
                                    both.
                                    Penalties calculated incorrectly
                                    Of the 50 accounts reviewed, 9 (18 percent) contained
                                    inaccurately computed FTP penalties. For five of the nine
                                    accounts, taxpayers had already paid the incorrect amounts
                                    and an IRS adjustment would be necessary to correct the
                                    error. The other 4, even though miscalculated, had reached
                                    the maximum 25 percent penalty amount, so the effect of
                                    the IRS employees’ errors was negated.
                                    In our opinion, several factors contributed to the IRS
                                    employees’ penalty calculation errors:
                                    •   FTP penalty calculations can be very complex,
                                        involving several variables that must be factored into the
                                        calculation to obtain the correct penalty amount.

                                    2
                                      The IRS database that consists of Federal tax-related transactions and
                                    accounts for businesses. These include employment taxes, income taxes
                                    on businesses, and excise taxes.
                                    3
                                      The IRS database that maintains transactions or records of individual
                                    tax accounts.
                                    4
                                      According to IRS records, approximately 32 million FTP penalties
                                    were assessed during Fiscal Years 2001 and 2002.
                                    5
                                      A non-statistical random sample was selected because resources were
                                    not available to review a statistically valid sample.
                                                                                                    Page 2
  Errors in Failure to Pay Penalty Amounts
Occur When the Penalty Is Computed Manually

                Specifically, IRS tax examiners must determine the
                correct date to begin assessing the penalty. These dates
                may vary depending on the type of account. For
                example, qualifying taxpayers affected by natural
                disasters or serving in combat zones receive an
                extension to file and pay their taxes, extending the FTP
                penalty start date. Taxpayers in bankruptcy status have
                the FTP penalty suspended from computation. Also, the
                FTP penalty rate changes when the taxpayer enters into
                an installment agreement or receives a notice of intent to
                levy, or when a notice and demand for immediate
                payment is issued. In addition, since the FTP penalty is
                only assessed on the unpaid tax, any other accrued
                penalties and/or interest must not be included in the
                calculation.
            •   Many of the IRS employees calculating penalties do so a
                relatively small percentage of their work time and do not
                become skilled in applying the various rules associated
                with these calculations.
            •   Many employees in different functions within the IRS
                work restricted penalty accounts. Decisions regarding
                employee training and quality control are subject to the
                views of various IRS managers who may have differing
                opinions regarding the level of commitment their
                functions should give these matters.
            Inherent in the IRS’ mission to apply the tax law with
            integrity and fairness is the concept to collect the proper
            amount of money from each taxpayer. If penalty amounts
            owed by taxpayers are not calculated accurately, the IRS
            risks collecting too little or too much money from taxpayers
            whose account balances are calculated in error. The average
            dollar amounts of the miscalculated penalties in our sample
            were relatively small. However, the percentage these
            calculations varied from the correct amount was significant.
            On average, the IRS computed amount differed from the
            correct amount by 112 percent.
            Our sample was not valid for projecting the overall dollar
            effect on taxpayers. However, because our accounts were



                                                                   Page 3
  Errors in Failure to Pay Penalty Amounts
Occur When the Penalty Is Computed Manually

            selected at random, it is reasonable to believe similar error
            rates would apply over the population.6
            Accounts Restricted in Error
            Of the 50 accounts reviewed, 7 were unnecessarily restricted
            from computing the FTP penalty amount. It is important
            that only those tax accounts that require manual calculation
            of penalties be restricted for reasons including the
            following:
            •   Manually calculating penalties is very time-consuming.
                Because FTP calculations can often be very complex,
                the amount of time needed to perform the calculations
                can be significant. After an account is restricted,
                employees must periodically update the penalty
                calculation manually until the account is full paid or
                until the maximum penalty of 25 percent of the tax due
                is reached.
            •   Manually performing complex penalty calculations
                significantly increases the potential for errors.
                Calculation errors can occur when the account is
                initially restricted or later when the amount of penalty
                owed is manually updated.
            Further review of the seven accounts that were
            unnecessarily restricted indicated a potential problem with a
            particular type of account in the sample. Specifically, we
            found accounts worked by the Substitute for Return (SFR)
            function,7 particularly those accounts with return due dates
            after July 30, 1996, were often unnecessarily restricted.
            Overall, 26 of 50 accounts reviewed were worked by the
            SFR function. Of these 26 accounts, 6 had return due dates
            after July 30, 1996, and 4 of the 6 were unnecessarily
            restricted.
            The Congress enacted changes to the FTP penalty
            computation for SFR accounts with return due dates after
            July 30, 1996. Accounts with a return due date prior to this

            6
              The random sample of 50 cases used to estimate the error rate of the
            population carries a 90 percent confidence level with a precision of plus
            or minus 9 percent.
            7
              The SFR function prepares “substitute” returns for individual
            taxpayers that fail to file a return.
                                                                             Page 4
  Errors in Failure to Pay Penalty Amounts
Occur When the Penalty Is Computed Manually

            date still require manual computation of the FTP penalty;
            however, accounts with due dates after July 30, 1996, can be
            calculated by the computer.
            Even though we cannot reliably project our sample results,
            there are indications tax examiners are not familiar with the
            change in the requirements to restrict SFR accounts.
            Unnecessarily restricting accounts increases both the
            workload for IRS employees and the opportunity for
            calculation errors.
            Recommendations
            Based on a recommendation made in the prior TIGTA
            report (see page 1), the IRS has committed to limit the
            quality review of restricted interest to a centralized function
            known as the Complex Interest Quality Measurement
            System (CIQMS). This centralization is scheduled to take
            place in January 2005. Accordingly, the Director, Office of
            Penalties and Interest, should:
            1. Consider including the quality review of the manually
               computed FTP penalty as part of the responsibilities of
               the CIQMS. If not included, the Director should ensure
               all IRS tax examiners calculating penalties are properly
               trained to manually compute the FTP penalty. The
               computation of the FTP penalty could be included with
               the training package developed for computing restricted
               interest.
            Management’s Response: IRS management stated that a
            key aspect of having the centralized group handle quality
            review of the manually computed FTP penalties will be their
            ability to link this work with the other work performed by
            the group. Therefore, the Director, Payment Compliance,
            Small Business/Self-Employed Division, agreed to study
            whether the quality review of the manual computation of the
            FTP could be linked to the CIQMS once it becomes
            functional. In the meantime, the Office of Penalties and
            Interest will consult with the appropriate functions
            responsible for creating the training modules to ensure all
            affected personnel have received the necessary training and
            timely receive the related material for updates and reviews.
            2. Perform an independent review of SFR accounts with
               return due dates after July 30, 1996, to determine if, in
                                                                     Page 5
  Errors in Failure to Pay Penalty Amounts
Occur When the Penalty Is Computed Manually

               fact, a high percentage of these accounts continue to be
               unnecessarily restricted. If warranted, the Director
               should then ensure training is provided that emphasizes
               the appropriate circumstances for restricting these types
               of accounts.
            Management’s Response: The Office of Penalties and
            Interest will conduct a review of SFR accounts to determine
            the source of any unnecessary restrictions and, if necessary,
            will advise the affected employees accordingly.




                                                                   Page 6
                             Errors in Failure to Pay Penalty Amounts
                           Occur When the Penalty Is Computed Manually

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether Internal Revenue Service (IRS)
employees manually computed the Failure to Pay (FTP) penalty correctly, and manual
computations were limited to only those situations where IRS computers could not make the
computation.
To accomplish our objective, we:
I.      Determined the policies and procedures followed by the IRS for manually computing the
        FTP penalty and whether these procedures were compliant with the appropriate tax laws.
        A. Reviewed the penalty Internal Revenue Manual instructions.
        B. Interviewed applicable IRS management and employees to determine the procedures
           being used to manually compute FTP penalties on taxpayer and business accounts.
        C. Reviewed applicable/available training material for processing manual computations
           of FTP penalties.
        D. Reviewed the appropriate Internal Revenue Code sections, revenue procedures, and
           any IRS Counsel rulings relating to the manual computation of FTP penalties.
II.     Determined the volume of manual FTP penalties found on the Individual Master File1 and
        the Business Master File2 that were manually computed for the last 2 tax years prior to
        January 1, 2003. We obtained a computer extract of all accounts found on these Master
        Files for the last 2 tax years prior to January 1, 2003, containing taxpayer accounts
        (modules, both individual and business) with computer codes indicating a manually
        computed FTP penalty.
III.    Determined whether manual FTP penalties were correctly computed and whether the FTP
        penalties were unnecessarily restricted.
        A. Selected a random sample3 of taxpayer accounts with a manually computed FTP
           penalty for the last 2 tax years prior to January 1, 2003.
        B. Reviewed the sampled accounts to determine if the amount of the manual FTP
           penalty was computed correctly on the accounts.



1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  A non-statistical random sample of 50 accounts was selected because resources were not available to review a
statistically valid sample (the population totaled 164,297).
                                                                                                           Page 7
                Errors in Failure to Pay Penalty Amounts
              Occur When the Penalty Is Computed Manually

C. Reviewed the sampled accounts to determine if the IRS unnecessarily restricted
   taxpayers’ accounts from normal computer-generated penalty computations.
D. Obtained review assistance from qualified penalty experts within the IRS to
   determine if our analysis of the manual FTP penalty computations and restricted
   accounts was correct.




                                                                                Page 8
                        Errors in Failure to Pay Penalty Amounts
                      Occur When the Penalty Is Computed Manually

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Acting Director
Bill R. Russell, Audit Manager
Scott D. Critchlow, Lead Auditor
Douglas C. Barneck, Senior Auditor
Roy E. Thompson, Senior Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                       Page 9
                       Errors in Failure to Pay Penalty Amounts
                     Occur When the Penalty Is Computed Manually

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Director, Reporting Enforcement, Small Business/Self-Employed Division SE:S:C:CP:RE
Deputy Director, Compliance Services, Small Business/Self-Employed Division SE:S:C:CS
Director, Office of Penalties and Interest, Small Business/Self-Employed Division
SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                  Page 10
  Errors in Failure to Pay Penalty Amounts
Occur When the Penalty Is Computed Manually

                                              Appendix IV


Management’s Response to the Draft Report




                                                            Page 11
  Errors in Failure to Pay Penalty Amounts
Occur When the Penalty Is Computed Manually




                                              Page 12
  Errors in Failure to Pay Penalty Amounts
Occur When the Penalty Is Computed Manually




                                              Page 13
